           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE MEASURE REVIEW:
  RELIABILITY OF THE DATA USED TO
   MEASURE ELECTRONIC SERVICE
             DELIVERY

     July 2002     A-14-01-11032




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   July 30, 2002                                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Measure Review: Reliability of the Data Used to Measure Electronic
        Service Delivery (A-14-01-11032)


        The Government Performance and Results Act (GPRA) of 19931 requires the Social
        Security Administration (SSA) to develop performance indicators that assess the
        relevant service levels and outcomes of each program activity. GPRA also requires
        disclosure of the processes used to verify and validate the measured values used to
        report on program performance. The Office of the Inspector General will conduct
        reviews to determine the reliability of SSA’s reported performance data. One of SSA’s
        key initiatives in its Performance Plan for Fiscal Year 2000 calls for increasing the range
        of program and information services available to its customers over the phone (800-
        number) or electronically. The objective of this audit was to determine the reliability of
        the data SSA reported for the following GPRA performance indicator and its relationship
        to the strategic objective of the Agency.

                  Indicator                                    FY 2000 Goal      FY 2000 Actual

        Percent increase in the number of
        automated SSA-initiated Personal                            50 percent     55 percent
        Earnings and Benefit Estimate
        Statement (PEBES)2 inquiries
        processed on the Internet.

        Baseline Data: Actual percent of Social Security Statement inquiries processed on the
        Internet during Fiscal Year (FY) 1999 was 23 percent.


        1
            Public Law No. 103-62.
        2
            PEBES is also known as the Social Security Statement.
BACKGROUND
In accordance with the Social Security Act,3 SSA provides wage earners information
maintained in SSA’s system of records. This information includes reported wages and
self-employment income, the amount of social security taxes paid by the requestor and
his or her employer, and estimated future benefits.

In FY 1988, SSA began issuing this information in PEBES upon request to eligible
individuals. SSA would only issue the PEBES statement if the requestor’s Social
Security number (SSN) and identity successfully matched SSA enumeration records.

In March 1997, because of customer demand and technological advances, SSA began
testing a fully interactive Internet PEBES. Using an Internet application, requestors
could enter their SSN and identifying information directly to SSA systems and receive
their PEBES statement electronically while sitting at a terminal or personal computer.
This initiative, however, caused public and congressional privacy concerns, and SSA
suspended interactive PEBES testing in April 1997.

These privacy concerns caused SSA to change its strategy for using the Internet to
provide PEBES information. Since FY 1998, requestors have been able to go to SSA’s
Internet web site and either complete and submit a PEBES application on-line or have
SSA mail them a PEBES request form. However, the PEBES statement itself is not
provided electronically.

Since FY 1999, PEBES has been called the Social Security Statement. Applications to
receive Social Security Statements can be obtained from a variety of sources such as
senior citizen centers, retirement seminars, local SSA field offices (FO) or by calling
SSA’s 800-number telephone service. When calling SSA’s 800-number, individuals can
request a form from a TeleService Representative or through an automated response
unit (ARU). The ARU requires requestors to use their touch-tone telephone to enter the
necessary information.

When individuals request a form via the Internet or telephone, SSA will process the
request and mail the form to the requestor. For individuals to obtain a Social Security
Statement, they must complete and mail the form to SSA’s Data Operations Center
(DOC) in Wilkes-Barre, Pennsylvania. Staff at the DOC will enter information from the
form to SSA’s automated Social Security Statement System. If the essential information
(such as name, date of birth and SSN) is consistent with SSA’s data base, SSA will
create a Social Security Statement and mail it to the requestor. Requestors who have
not earned enough Social Security credits or supplied incomplete or inaccurate
information will receive a letter of explanation instead of a benefit statement.

For those who complete and submit Social Security Statement request forms on-line,
SSA mails them their Social Security Statements or letters of explanation. This method

3
    Social Security Act, §1143, 42 U.S.C. 1320b-13.


                                                      2
enables SSA to avoid the cost of handling and mailing request forms to customers, and
having to enter data from completed forms. In addition, customers do not have to
manually complete and return the form, which saves them time and money.

RESULTS OF REVIEW

We were unable to determine the reliability of the data SSA used for its FY 2000
performance indicator because SSA did not retain adequate documentation. In
addition, because the indicator measured the use of only one Internet application, it did
not support its strategic objective of expanding the number of program informational
services available to customers over the telephone or through the Internet.

Although we could not determine the reliability of the data SSA reported, we reviewed
SSA’s revised performance plan for FY 20014 to see if the Agency had ever modified its
performance indicators to better support its efforts to expand the number of services
available via the phone or Internet. In doing this, we found a number of issues that
management should consider.

In its revised performance plan for FY 2001, SSA established new Electronic Service
Delivery performance indicators. While the new indicators track SSA’s success in
establishing more customer-oriented services on-line, they no longer emphasize the
importance of encouraging more people to use existing on-line or Internet services.
Customers, if not informed that on-line services are available, will not use them, which
will reduce the economic benefit that SSA receives from providing Internet services. As
such, we believe that SSA could save nearly $5 million in a 5-year period by
encouraging more customers to use Internet-linked devices in its FOs instead of more
costly labor-intensive services (see Appendix B for details).

NO SUPPORTING DOCUMENTATION

We could not determine the reliability of the data that SSA used in measuring the
increase in Internet Social Security Statement inquiries. SSA did not retain
documentation of the data it used in counting inquiries during October, November and
December 1999, and it under-reported the number of inquiries for January and
August 2000. Consequently, we could not verify whether SSA exceeded its FY 2000
goal by 5 percent as reported in its Performance and Accountability Report for
Fiscal Year 2000. SSA staff responsible for collecting and maintaining the data told us
that they had not been instructed to retain supporting documentation.

PERFORMANCE INDICATOR DOES NOT SUPPORT STRATEGIC OBJECTIVE

GPRA requires the head of each agency to submit to the Director of the Office of
Management and Budget and to Congress a strategic plan for program activities. This


4
    SSA’s Performance Plan for FY 2002/Revised Final Performance Plan for FY 2001.


                                                   3
includes an explanation of how performance indicators relate to strategic plan
objectives.5

SSA’s FY 2000 performance indicator did not support its strategic objective of
increasing the range of program and information services available to customers over
the telephone or electronically. Instead of measuring the number of additional on-line
and ARU services made available to customers, the performance indicator measured
the number of persons accessing one Internet service, Social Security Statement
inquiries.

ENCOURAGING GREATER USE OF ELECTRONIC SERVICES

In its revised performance plan for FY 2001, SSA modified the previous year’s strategic
objective to read: “By 2005, make 60 percent of SSA’s customer-initiated services
available to customers either electronically via the Internet or through automated
telephone service….” 6 The performance indicator for the FY 2001 objective is the
percent of SSA customer-initiated services available via the Internet or ARU. The goal
is to have approximately 15 of 73 possible customer-initiated services available through
the Internet or ARU.

The revised FY 2001 performance indicator complements the strategic objective of
expanding the number of customer-initiated services available through the Internet or
ARU. However, in establishing that performance measure, SSA dropped the FY 2000
indicator focusing on the volume of Social Security Statement request inquiries initiated
through the Internet. Although that indicator did not complement its strategic objective,
it did reflect the importance of promoting the greater use of customer services available
through the Internet and ARU. It is the secure and effective use of those services that
will reduce the Agency’s dependence on the more expensive and labor-intensive
customer services such as face-to-face conversations with an SSA Service
Representative, or using the 800-number to speak with a TeleService Representative.

As indicated in an internal October 2000 report, SSA needs to promote easy-to-use,
self-help applications accessible from Internet-linked devices located in SSA FOs.7
Instead of waiting for assistance from an SSA Service Representative, applicants for
Social Security Statements and other automated services could follow simple
instructions highlighted on a kiosk-like computer screen and initiate their Internet
requests in the FO reception area.

SSA has already assessed the cost-benefit of implementing an in-house, on-line kiosk
system and making it available in high-volume FOs for three customer-initiated services.




5
  GPRA of 1993, Public Law 103-62, section 306(a)(4).
6
  SSA’s Performance Plan for FY 2002/Revised Performance Plan for FY 2001.
7
  Business Case Analysis: Kiosk Overview, Social Security Administration, October 2000.


                                                  4
The services include applications8 for new and replacement SSN cards, verifying benefit
amounts and applying for retirement benefits.

Based on a proof of concept project conducted between July 1999 and January 2000,
SSA prepared a preliminary cost-benefit analysis for piloting and implementing the kiosk
service. For a 5-year period, SSA estimated a total cost of $6.1 million and total
savings of over $11 million realizing a net savings of nearly $5 million that SSA could
put to better use (see Appendix B for details). By adding an existing Internet service—
Social Security Statement requests—to the kiosk project, SSA should increase
estimated project savings. As of June 2002, SSA decided not to fund a pilot of the kiosk
proposal.

CONCLUSIONS AND RECOMMENDATIONS
In our review, we were unable to determine the reliability of data used to measure
electronic service delivery, and we found that the performance indicator in SSA’s
Performance Plan for Fiscal Year 2000 did not support its strategic objective. In
addition, we identified a number of issues SSA management should address as it
expands electronic service delivery.

SSA’s efforts to expand services available to customers via the telephone and Internet
should focus on the potential economic benefits of increasing the use of customer-
initiated services that are available electronically. SSA should establish a strategic
objective for increasing customer use of secure Internet services. It should also re-
establish a performance indicator to assess its success in achieving that objective.
Because of the potential savings of doing business over the Internet, SSA should pilot
customer use of easy-to-use, self-help applications accessible from Internet-linked
devices located in SSA FOs. As SSA increases the use of Internet services, it should
also assess inherent security and privacy risks. By encouraging the use of available
and secure, customer-initiated Internet services; SSA will save money, reduce demands
on human capital, diversify customer services available to the public, and reduce
customer wait time and postage expenses.

We recommend SSA:

1. Establish procedures requiring staff to retain documentation of the data sources and
   values used in reporting program performance and make sure that staff is aware of
   the procedures.

2. Establish an additional strategic objective of increasing the use of secure on-line or
   Internet services.




8
 Social Security requires that a person applying for a Social Security card or retirement benefits submit a
paper copy of the application, with a written signature, before Social Security will process the application.


                                                      5
3. Develop performance indicators consistent with the strategic objective of increasing
   customer use of secure on-line or Internet services.

4. Pilot customer use of easy-to-use, self-help applications accessible from Internet-
   linked devices located in SSA FOs. Expand the use of the Internet-linked
   applications if the pilot proves to be secure and cost beneficial.

5. Include the Internet Social Security Statement request service in the pilot.

AGENCY COMMENTS
SSA agreed with Recommendations 1 through 3. SSA agreed to establish automated
procedures to help employees retain documentation of the data sources and values used
in reporting program performance, and to emphasize the importance of retaining the
documentation. In the future, SSA will establish data bases or a data warehouse to help
employees create the reports needed to retrieve historical performance indicator data.

In addition, SSA agreed to establish a strategic objective of increasing the use of secure
on-line or Internet services along with a performance indicator to measure the volume
usage of Internet and electronic services.

SSA disagreed with our fourth and fifth recommendations to: (1) pilot customer use of
easy-to-use, self-help applications accessible from Internet-linked devices located in
SSA FOs, including the Internet Social Security Statement request service; and (2)
expand use of the Internet-linked application if the pilot proves it to be secure and cost
beneficial. SSA decided that although the pilot has merit, it would not spend scarce
resources on it. Rather than finding alternative ways to access Internet services, SSA
will concentrate on increasing the breadth and usage of Internet services. Also, SSA
conducted a pilot of customer use of Internet-linked personal computers in FO lobbies
and found that existing Internet services did not address the needs of FO clients (see
Appendix C for details).

OFFICE OF THE INSPECTOR GENERAL RESPONSE
One way for SSA to accomplish its major objective of increasing “the breadth and usage
of Internet services” is to continue searching for alternative ways for clients to access
those services. We believe that many people do not use SSA Internet services
because they do not have access to Internet-linked personal computers. Making this
type of access available in SSA FOs, along with simple instructions, will provide people
with an alternative to waiting for an SSA representative and ultimately increase Internet
usage.

Because secure access to Internet services does not have to be through a kiosk, we
have removed that word "kiosk" from Recommendations 4 and 5 in our report.
However, Internet applications are rapidly evolving to meet user needs, including secure
electronically-transmitted reports to users. If SSA does not evaluate the use of secure


                                             6
Internet-linked devices in SSA FO lobbies before these developments occur, it will not
be prepared to fully exploit the new software and security advances.




                                            James G. Huse, Jr.




                                           7
                                         Appendices
APPENDIX A — Scope and Methodology

APPENDIX B — Office of Automation Support Access Project

APPENDIX C — Agency Comments

APPENDIX D — OIG Contacts and Staff Acknowledgments
                                                                          Appendix A
Scope and Methodology
Our audit methodology included reviewing Social Security Administration (SSA)
reports and policies and procedures pertaining to the Government Performance
and Results Act of 19931. We also examined an SSA study, which discussed the
cost-effective use and increasing availability of automated program services
initiated over the phone or via the Internet.2

We reviewed detailed documentation of the procedures SSA uses to collect,
count and process Social Security Statement requests. To acquire this
documentation and learn more about the Social Security Statement process, we
interviewed SSA personnel at Headquarters in the Office of Systems, the Office
of Information Management and the Office of Workload Analysis. We also
interviewed personnel at the SSA Data Operations Center in Wilkes-Barre,
Pennsylvania.

Our audit work was performed in Baltimore, Maryland, between April and
June 2001 and was conducted in accordance with generally accepted
government auditing standards as they pertain to performance audits.




1
    Public Law No. 103-62.
2
    Business Case Analysis: Kiosk Overview, Social Security Administration, October 2000.
                              Appendix B

AUTOMATED CUSTOMER COMMON ENTRY SUPPORT
      SYSTEM – KIOSK PILOT PROPOSAL
    AUTOMATED CUSTOMER COMMON ENTRY SUPPORT
          SYSTEM – KIOSK PILOT PROPOSAL1
Pilot for 26 Social Security Administration (SSA) Field Offices (FO) for Fiscal Year
(FY) 2002:
       ACTION            Kiosks       Unit Cost              Total
Purchase                    43          $4,000               $172,000
Software                                                     $100,000
Site Preparation            43          $1,000                 $43,000
                                                       Total Pilot Cost             $315,000
If successful, roll-out funding in FY 2003:


Purchase                  1,038         $2,4002            $2,491,200
Software                                                     $100,000
                                                3
Maintenance                 43          $ 120                   $5,160
                                               Total FY 2003 Costs                $2,596,360


Rollout Funding in FY 2004:
      ACTION             Kiosks        Unit Cost              Total
Purchase                  1,038         $2,400             $2,491,200
Software                                                     $100,000
Maintenance               1,081         $ 120                $129,720
                                               Total FY 2004 Costs                $2,720,920
Future Maintenance
FY 2005                   2119          $ 120                $254,280
FY 2006                   2119          $ 120                $254,280
                                        Total future maintenance                   $508,560


                                       Total Costs for First 5 Years             $6,140,840



1
 SSA’s Key Initiative Plan and Schedule, Section IV, Business Case/Return On Investment.
March 8, 2001. (A proposal to pilot public use of Internet-linked, kiosk-like devices or personal
computers in SSA field offices.)
2
    $4,000 each less 40% volume discount = $2,400 each.
3
$10 per month x 12 months = $120.


                                                B-1
      ESTIMATED COST SAVINGS ON THE SOCIAL SECURITY
     ADMINISTRATION’S KEY INITIATIVE PLAN AND SCHEDULE,
      SECTION IV, BUSINESS CASE/RETURN ON INVESTMENT


                                                  Annual           Annual
                                                  Salary             Cost
          Action           Workyears          With Benefits        Savings


Benefit Verification               3              $43,476      $    130,428
Social Security Number             24             $43,476      $ 1,043,424
Retirement Insurance Benefits      18             $58,104      $ 1,045,872
                         Total Projected Annual Savings        $ 2,219,724


                         Total Projected 5-Year Savings       $11,098,620


                         Total Estimated 5-Year Costs         ($ 6,140,840)


Estimated Net Savings over the 5-Year period4                 $ 4,957,780




4
    See footnote one.




                                        B-2
                  Appendix C
Agency Comments
                                      SOCIAL SECURITY
MEMORANDUM


Date:      May 31, 2002                                                           Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Performance Measure Review: Reliability of
           the Data Used to Measure Electronic Service Delivery" (A-14-01-11032)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report
           content and recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Dan Sweeney on extension 51957.

           Attachment: SSA Response




                                                     C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE
DATA USED TO MEASURE ELECTRONIC SERVICE DELIVERY”
(A-14-01-11032)


Recommendation 1

Establish procedures requiring staff to retain documentation of the data sources and
values used in reporting program performance and make sure that staff is aware of the
procedures.

Comment

We agree. Since there is no central repository to store archived information, employees
manually maintain historic and trend analysis on spreadsheets. With changing indicators
and numerous key staff changes, we were unable to retrieve all of these manually
maintained counts. We recognize the importance of data retrieval and will emphasize
this point with employees providing data for the Performance Plan indicators. Our long-
term goal is to establish databases or a data warehouse that will enable employees to
create the necessary reports for retrieving historical data.

Recommendations 2 and 3

Establish an additional strategic objective of increasing the use of secure on-line or
Internet services.

Develop performance indicators consistent with the strategic objective of increasing
customer use of secure on-line or Internet services.

Comment

We agree. We plan to address OIG’s concerns by updating the objective to include both
the breadth and usage of services in the FY 2004 Performance Plan. Included in our
plans is the development of a new performance indicator to focus on the volume usage of
Internet and electronic services.

Recommendations 4 and 5

Pilot customer use of easy-to-use, self-help applications accessible from Internet-linked
kiosk devices located in SSA field offices (FO). Expand the use of the kiosk applications
if the pilot proves to be secure and cost beneficial.

Include the Internet Social Security Statement request service in the kiosk pilot.



                                            C-2
Comment

We do not agree with either recommendation.

Following receipt of the draft report, the Electronic Service Delivery Associate
Commissioner Steering Committee reviewed the kiosk project at its May 7, 2002,
meeting to consider the OIG recommendations. Although the proof of concept data from
the kiosk study supports additional piloting of kiosks, the Committee’s consensus was
that, in the current environment of limited resources for competing Information
Technology initiatives, further piloting should not be done at this time. The Agency’s
major focus now is on increasing the breadth and usage of Internet services, not finding
alternate ways to access existing services.

In addition to SSA’s consideration of kiosk technologies, we conducted a pilot under the
Techway umbrella that tested providing Internet-linked personal computers in FO
lobbies. In that pilot, we found that the available Internet applications do not address the
needs of FO visitors. For example, the Internet benefit verification application results in
a letter mailed to the beneficiary’s home and does not provide a printed notice for
immediate pick up.




                                            C-3
                                                                 Appendix D

OIG Contacts and Staff Acknowledgments

OIG Contacts
   Kitt Winter, Director, Data Analysis and Technology Audit Division
   (410) 965-9702

   Patrick Kennedy, Audit Manager, Mainframe Controls and Advanced
   Techniques (410) 965-9724

Acknowledgments

In addition to those named above:

   Thomas P. Tennant, Auditor-in-Charge

   Annette DeRito, Writer-Editor, Policy, Planning and Technical Services
   Division


For additional copies of this report, please visit our web site at www.ssa.gov/oig
or contact the Office of the Inspector General’s Public Affairs Officer at
410-966-1375.

Please refer to Common Identification Number A-14-01-11032.
                       DISTRIBUTION SCHEDULE

                                                                       No. of
                                                                      Copies

Commissioner of Social Security                                                 1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                               1
Assistant Inspector General for Investigations                                  1
Assistant Inspector General for Executive Operations                            3
Assistant Inspector General for Audit                                           1
Deputy Assistant Inspector General for Audit                                    1
 Director, Systems Audit Division                                               1
 Director, Financial Management and Performance Monitoring Audit Division       1
 Director, Operational Audit Division                                           1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                    1
Team Leaders                                                                    25
Income Maintenance Branch, Office of Management and Budget                      1
Chairman, Committee on Ways and Means                                           1
Ranking Minority Member, Committee on Ways and Means                            1
Chief of Staff, Committee on Ways and Means                                     1
Chairman, Subcommittee on Social Security                                       2
Ranking Minority Member, Subcommittee on Social Security                        1
Majority Staff Director, Subcommittee on Social Security                        2
Minority Staff Director, Subcommittee on Social Security                        2
Chairman, Subcommittee on Human Resources                                       1
Ranking Minority Member, Subcommittee on Human Resources                        1
Chairman, Committee on Budget, House of Representatives                         1
Ranking Minority Member, Committee on Budget, House of Representatives          1
Chairman, Committee on Government Reform and Oversight                          1
Ranking Minority Member, Committee on Government Reform and Oversight           1
Chairman, Committee on Governmental Affairs                                     1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        96
               Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from SSA, as well as conducting investigations of
OIG employees, when necessary. Finally, OEO administers OIG’s public affairs, media,
and interagency activities, coordinates responses to Congressional requests for
information, and also communicates OIG’s planned and current activities and their results
to the Commissioner and Congress.
                              Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                        Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures
and techniques; and 3) legal implications and conclusions to be drawn from audit and
investigative material produced by the OIG. The Counsel’s office also administers the
civil monetary penalty program.
